<html>
<title> - FISCAL YEAR 2019 BUDGET REQUEST FOR MISSILE DEFENSE AND MISSILE DEFEAT PROGRAMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                   
                          [H.A.S.C. No. 115-103]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                    FISCAL YEAR 2019 BUDGET REQUEST

                        FOR MISSILE DEFENSE AND

                        MISSILE DEFEAT PROGRAMS

                               __________

                              HEARING HELD
                             APRIL 17, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-684                    WASHINGTON : 2019                     
          
                                     
  
  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

DOUG LAMBORN, Colorado               JIM COOPER, Tennessee
DUNCAN HUNTER, California            SUSAN A. DAVIS, California
MO BROOKS, Alabama                   RICK LARSEN, Washington
JIM BRIDENSTINE, Oklahoma            JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              BETO O'ROURKE, Texas
MIKE COFFMAN, Colorado               DONALD NORCROSS, New Jersey
BRADLEY BYRNE, Alabama               COLLEEN HANABUSA, Hawaii
SAM GRAVES, Missouri                 RO KHANNA, California
JODY B. HICE, Georgia
                Maria Vastola, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Dickinson, LTG James H., USA, Commanding General, U.S. Army Space 
  and Missile Defense Command/Army Forces Strategic Command, and 
  Joint Functional Component Command for Integrated Missile 
  Defense........................................................     8
Greaves, Lt Gen Samuel A., USAF, Director, Missile Defense Agency     6
Robinson, Gen Lori J., USAF, Commander, United States Northern 
  Command and North American Aerospace Defense Command...........     5
Rood, Hon. John, Under Secretary of Defense for Policy, 
  Department of Defense..........................................     3

                                APPENDIX

Prepared Statements:

    Dickinson, LTG James H.......................................    95
    Greaves, Lt Gen Samuel A.....................................    52
    Robinson, Gen Lori J.........................................    37
    Rogers, Hon. Mike............................................    31
    Rood, Hon. John..............................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Lamborn..................................................   123
    Ms. Stefanik.................................................   126
    
 

FISCAL YEAR 2019 BUDGET REQUEST FOR MISSILE DEFENSE AND MISSILE DEFEAT 
                                PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Tuesday, April 17, 2018.
    The subcommittee met, pursuant to call, at 3:31 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. This subcommittee will come to 
order.
    We want to welcome to our hearing on the fiscal year 2019 
budget request for missile defense and defeat activities. And I 
want to thank our witnesses for their service to our country, 
but also for being here and the preparation that you have to 
put into these hearings. I know it takes a lot of time and 
energy, but it is very helpful to us.
    Our witnesses today are the Honorable John Rood, Under 
Secretary of Defense for Policy; General Lori Robinson, 
Commander, Northern Command [NORTHCOM], North American 
Aerospace Defense [NORAD] Command. And I want to take a moment 
to especially recognize General Robinson. You have been a 
friend of this committee, and not only the commander of 
NORTHCOM and NORAD, but also across your 37 years of service to 
this great Nation.
    I know I speak on behalf of this committee and the HASC 
[House Armed Services Committee] as a whole, when I thank you 
for your dedicated and unwavering service, and we wish you well 
in your retirement.
    Mr. Lamborn. I would like to give her a round of applause.
    [Applause.]
    Mr. Rogers. General Lieutenant Sam Greaves, and no, he is 
not retiring. He is just getting warmed up. He is the Director 
of Missile Defense Agency [MDA]. And, General, congratulations 
on your assignment as director of MDA. You are no stranger to 
this committee, and we look forward to continuing to work 
together with you on missile defense for a long time.
    And Lieutenant General Dickinson--it has got Lieutenant 
down here. Lieutenant General James Dickinson, Commander, Army, 
Space and Missile Defense Command, Army Forces Strategic 
Command, and Joint Functional Component Command for Integrated 
Missile Defense for the U.S. Strategic Command.
    Let me start by just highlighting some of what we have seen 
since our previous missile defense hearing in June of last 
year. North Korea has tested a missile with ICBM 
[intercontinental ballistic missile] range. Iran continues to 
develop their own ICBMs under the guise of space launch 
program. Putin boasted in his recent national speech about, and 
I quote, ``invincible missile,'' close quote, targeted at the 
United States. And China is surging ahead with their own 
missile programs, most notably the hypersonic, in the 
hypersonic realm.
    Fortunately, I think this administration gets it. The 
budget amendment we received last year, for an additional $4 
billion for missile defense in the fiscal year 2019 request, 
which includes about $12 billion across the board for missile 
defense, seemed appropriate giving the rising threat levels 
around the globe.
    As is highlighted in the National Defense Strategy, and I 
quote, ``We cannot expect success fighting tomorrow's conflicts 
with yesterday's weapons or equipment. To address the scope and 
pace of our competitors' and adversaries' ambitions and 
capabilities, we must invest in modernization of the key 
capabilities through sustained predictable budgets,'' close 
quote.
    Now, we are waiting on this administration to release the 
Missile Defense Review. Hopefully, in the coming weeks, we will 
see it.
    We have developed the best missile defenses in the world, 
but for the most part, they are technologies that were started 
15 years ago. The increasing threat makes it essential that we 
expand and enhance our missile defenses, not only with 
capacity, but also through steps of leaps in technology right 
now, and not 5 years from now.
    Increasing our GBI [ground-based interceptor] inventory, 
land-based sensors and regional interceptor capacity is 
critical, but cannot come at the cost of seriously going after 
technologies like directed energy, space sensing and boost 
phase capability.
    I want to thank our witnesses again. I look forward to the 
discussion, but right now, I would like to turn to the ranking 
member, my friend and colleague from Tennessee, Mr. Cooper, for 
any opening statement he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 31.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman.
    I would also like to welcome the witnesses, and in 
particular, wish General Robinson the best of luck. You have 
served your Nation well. You should be very proud.
    I will hold most of my questions for the classified portion 
of the hearing, so I will abbreviate my remarks now and look 
forward to hearing the testimony of the witnesses.
    Mr. Rogers. Great. Now, we will ask each of the witnesses 
to summarize their opening statements. You will be allowed 5 
minutes. I want to let you know that each of your opening 
statements in their full will be taken into the record. Without 
objection, so ordered.
    Mr. Rood, I recognize you first for your opening statement.

  STATEMENT OF HON. JOHN ROOD, UNDER SECRETARY OF DEFENSE FOR 
                 POLICY, DEPARTMENT OF DEFENSE

    Secretary Rood. Mr. Chairman, thank you.
    Chairman Rogers, Ranking Member Cooper, and distinguished 
members of the committee, thank you for the opportunity to 
appear before you today to testify on behalf of the President's 
fiscal year 2019 budget request in support of our efforts to 
improve our missile defense capabilities so that we remain 
ahead of the evolving threat while providing effective, 
integrated, and interoperable regional missile defenses in 
support of our global defense strategy.
    As the National Defense Strategy points out, the United 
States, allies, and partners confront a security environment 
that is more complex and volatile than any we have experienced 
in recent memory.
    Today, over 20 states possess offensive missiles and 
potential adversaries are expanding their missile capabilities 
in three directions simultaneously. They are increasing the 
capabilities of their existing missile systems, adding new and 
unprecedented types of missile capabilities, and integrating 
offensive missiles more thoroughly in their coercive threats, 
military exercises, and war planning.
    As you mentioned, Mr. Chairman, in your opening statement, 
over the past several years, North Korea has made substantial 
improvements in their ICBM program. Iran is extending the range 
of its ballistic missile systems with the goal of achieving an 
operational ICBM capability, and through its space launch 
vehicle program could shorten the pathway to an ICBM because 
space launch vehicles use similar technologies.
    Potential adversaries are also fielding an increasingly 
diverse and expansive modern range of regional offensive 
missile systems that can threaten the American forces abroad, 
allies, and partners.
    Their regional offensive missile systems include multiple 
types of short-, medium-, and intermediate-range missiles 
intended to provide coercive political and military advantages 
in regional crises or conflicts.
    These missile systems appear to be a central element of 
Russia's frequent and explicit coercive nuclear threats to the 
United States, our allies, and partners.
    As you mentioned, Mr. Chairman, Russia is developing a new 
generation of advanced, regional ballistic and cruise missiles 
that support its anti-access/area denial strategy intended to 
defeat U.S. and allied will and capability in regional crises 
or conflicts.
    China is also engaging in substantial modernization efforts 
that are summarized in my statements, that I will not repeat.
    So this as the backdrop and the strategic context, let me 
turn to a discussion of the 2019 budget request for missile 
defense and the policies, programs, and capabilities that it 
supports.
    The Department's budget request supports the President's 
direction set out in the National Security Strategy to develop 
a layered missile defense system to protect the American 
homeland from North Korean and Iranian missile threats. The 
request also supports regional missile defenses to protect our 
deployed forces, allies, and partners.
    Our missile defense system not only protects the United 
States, it strengthens deterrence of war, and assures our 
allies and partners.
    Today, the ground-based missile defense system provides 
protection for the Nation. It consists of 44 ground-based 
interceptors deployed in Alaska and California, in land-, sea-, 
and space-based centers, as well as the command and control 
system operated 24 hours a day by trained service members.
    We are strengthening this system, investing in technologies 
to ensure that we can continue to counter rogue state missile 
threats to our homeland.
    In 2017, DOD [Department of Defense] requested the 
reprogramming of fiscal year 2017 funding of more than $400 
million to counter the North Korean missile threat. Congress 
approved this request, for which we are grateful. These funds 
support important homeland defense activities, including 
initiating work on the procurement of 20 additional ground-
based interceptors in Alaska as early as 2023, which would 
bring the total to 64 fielded interceptors. The reprogramming 
also funded a service life extension to the Cobra Dane radar in 
Alaska and software upgrades to the Sea-Based X-Band radar, 
both of which are essential elements to our homeland defense.
    In November of 2017, the President submitted an amendment 
to the 2018 budget request for $4 billion for missile defense, 
which includes construction of a new missile field at Fort 
Greely, Alaska, and additional funding for 20 more GBIs.
    The fiscal year 2019 budget request includes $9.9 billion 
for the Missile Defense Agency, and $3 billion additional 
dollars for air and missile defense activities in the military 
departments.
    This budget funds a more capable GBI, with the redesigned 
kill vehicle; the deployment of a missile tracking and 
discrimination sensors, a network in Alaska, Hawaii, and the 
Pacific region; and a new Space-Based Kill Assessment 
capability.
    These near-term investments will help us obtain 
substantially more performance and efficiency out of the GMD 
[Ground-Based Midcourse Defense] system necessary to meet the 
evolving threat. We are also taking steps to bolster homeland 
defenses against air and cruise missile threats.
    In 2018, we will complete the first part of a two-part 
effort to provide effective surveillance against these threats 
to the National Capital Region. Doing so will enhance our 
ability to detect, track, and investigate suspicious aircraft, 
as well as cruise missiles, and when necessary, cue our missile 
defense systems against this full spectrum of air threats.
    We are on track to begin the second phase of this effort in 
fiscal year 2019, which will expand our capability to detect, 
identify, and take decisive action before threats can strike 
potential targets within the National Capital Region. We are 
also looking into technologies and concepts that can be used to 
provide scalable and deployable options for expanding this 
capability.
    The Department's budget request also includes deployment of 
regional missile defenses tailored to meet threats to U.S. 
forces abroad and allies and partners in Europe, the Middle 
East, and Indo-Pacific region.
    The budget enhances our regional missile defense 
capabilities through additional Patriot missiles, as well as 
THAAD [Terminal High Altitude Defense], SM-3 [Standard Missile-
3] Block IB, and SM-3 Block IIA interceptors.
    Our focus is on developing and fielding missile defense 
capabilities that are mobile and relocatable, which allows us 
flexibility to respond to a crisis wherever it might emerge.
    Because systems such as Patriot, THAAD, and Aegis BMD 
[ballistic missile defense]-capable ships can be surged when 
and where required, they make it possible to deploy layered 
missile defense capabilities that are responsive to regional 
threats as they arise.
    We are encouraging our allies and partners in Europe, the 
Middle East, and the Near East in Asia to acquire missile 
defense capabilities, and to strengthen cooperation in order to 
move toward a more interoperable and integrated missile defense 
architecture against hostile ballistic missile and cruise 
missile threats.
    Looking forward, it is clear our potential adversaries are 
modernizing and expanding their capabilities. We must ensure 
that our missile defense investment strategy and priorities 
enable us to meet the most dangerous threats today while also 
enabling us to counter future missile threats as they expand.
    Mr. Chairman, let me conclude by stating that in this 
increasingly complex and threatening environment, DOD must 
sustain the capabilities needed to deter and defend against 
attacks on our homeland, our forces abroad and our allies and 
partners.
    We must make the investments needed to address the ongoing 
erosion of our operational advantages and maintain the 
preeminent military power in the world.
    Thank you, again, for the opportunity to testify before you 
today.
    [The prepared statement of Secretary Rood can be found in 
the Appendix on page 33.]
    Mr. Rogers. Thank you, Mr. Rood.
    General Robinson, you are recognized.

  STATEMENT OF GEN LORI J. ROBINSON, USAF, COMMANDER, UNITED 
 STATES NORTHERN COMMAND AND NORTH AMERICAN AEROSPACE DEFENSE 
                            COMMAND

    General Robinson. Thank you. Chairman Rogers, Ranking 
Member Cooper, and distinguished members of the committee, I am 
honored to join you today to testify alongside Under Secretary 
of Defense Rood, General Greaves, and General Dickinson.
    As has been mentioned, the strategic environment and 
threats facing our Nation continues to evolve. Our adversaries 
are taking deliberate steps to extend their operational reach 
and are developing new capabilities to range targets in North 
America and Canada.
    At USNORTHCOM and NORAD, we understand the urgency of 
keeping pace with these evolving threats. We also recognize 
that North Korea represents the most immediate threat to our 
homeland and, therefore, remains NORTHCOM's highest priority.
    I am confident the ground-based midcourse defense system 
can defeat this threat today. And I strongly support the 
continued improvements to the ballistic missile defense 
enterprise in order to maintain our advantage.
    We continue to work closely with the Missile Defense 
Agency, the intelligence community, and other combatant 
commands as part of a collaborative effort to outpace the 
threat.
    I am grateful, as has been mentioned, for the committee's 
approval of the fiscal year 2017 above-threshold reprogramming, 
and support the budget amendment that will increase the 
system's capability and capacity.
    Under my NORAD responsibilities, advanced cruise missiles 
with a low radar cross section represent a challenge to our air 
defense systems. Russia continues to modernize its delivery 
systems, long-range bombers and strategic submarines, capable 
of launching from distances not previously seen, reducing the 
indications and warnings we are likely to receive prior to a 
combat launch.
    To defend against advanced cruise missiles, as have been 
mentioned, we are making prudent investments in advanced 
sensors and defensive weapon system to protect our Nation's 
vital assets.
    The men and women, the warriors of USNORTHCOM and NORAD 
stand united in a common purpose, ready to face the threats of 
the United States and Canada today, and we are evolving to face 
the threats of tomorrow.
    Sirs, as you have mentioned, I am getting the privilege to 
retire. I will tell you that after 37 years of serving my 
Nation, and after having these last 2 years, having the sacred 
responsibility of defending our Nation, I want you all to know 
my gratitude, my heartfelt appreciation for your support to 
NORAD and U.S. Northern Command, and to our Nation's Armed 
Forces, soldiers, sailors, airmen, Marine, Coast Guardsmen, and 
civilians, and in my NORAD hat, Canadians.
    Thank you, again, for giving me the privilege and 
opportunity to speak, and I welcome your questions.
    [The prepared statement of General Robinson can be found in 
the Appendix on page 37.]
    Mr. Rogers. Thank you, General Robinson. General Greaves, 
you are recognized for 5 minutes.

STATEMENT OF LT GEN SAMUEL A. GREAVES, USAF, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    General Greaves. Chairman Rogers, Ranking Member Cooper, 
distinguished members of the subcommittee, thank you for this 
opportunity to testify on the Missile Defense Agency's budget 
request for fiscal year 2019.
    I would first like to express our appreciation to this 
committee for its support of the Department's above-threshold 
reprogram request in September 2017, and the fiscal year 2018 
budget amendment, which provided reprogramming approval and 
emergency funding to enhance the Nation's missile defeat and 
the defense capabilities.
    I am also very pleased to report that we are executing 
these funds with the utmost urgency. I would also like to thank 
the thousands of men and women across the government and 
industry who worked tirelessly everyday across the globe in 
support of our Nation's Ballistic Missile Defense System. I 
truly believe they remain our asymmetric advantage.
    Over the past year, we have been given a clear and 
unambiguous message from the President, that we are committed 
to expanding and improving a state-of-the-art missile defense 
system. So in my mind, the time for delays and more studies and 
more objections is over. As I say it, the threat has voted and 
continues to visibly vote through the demonstration of their 
capabilities.
    Last summer, I laid out three Missile Defense Agency 
priorities to help guide our actions, our behavior in program 
planning. First, we will continue to focus on increasing system 
reliability to build more fighter confidence. Second, we will 
increase engagement capability and capacity. And third, we will 
address the advanced threat.
    I can confidently tell you today that the current BMDS 
system meets today's threat. However, as the threat increases 
in both number and lethality, we need to ensure that our 
systems remain reliable, remain secure from cybersecurity 
threats, and that the Nation's ballistic missile defense 
capability and capacity keep pace with that threat.
    We currently have 44 ground-based interceptors for homeland 
defense, and plan to expand the fleet to 64 by 2023. In 
addition, improvements in sensor coverage to include the long-
range discriminating radar in Clare, Alaska, the addition of a 
homeland defense radar in Hawaii, if approved, and planning for 
a homeland defense radar in the Pacific, as well as advanced 
discrimination improvements will enable the United States to 
improve protection of the homeland.
    The agency will also continue redesigned kill vehicle 
redevelopment efforts, enhance the stockpile reliability 
program, and expand the GBI battlespace.
    Integrated space and terrestrial sensors for cueing, 
tracking, discriminating, and targeting ballistic missile 
threats are critical to improving missile defense architecture 
and its robustness.
    This budget will continue to fund the Space-Based Kill 
Assessment Demonstration Program, to deliver a capability to 
confirm intercepts for improved defense of the homeland.
    We are also continuing concept definition studies for 
space-based missile defense tracking sensors.
    If pursued, space sensors will be able to detect and track 
both traditional as well as emerging threats as part of the 
BMDS architecture.
    Additionally, as the space layer matures, we will need an 
improved space test infrastructure to support verification in 
such areas as concept of operations, and the technical 
performance of space assets under development.
    This budget will also increase the number of Terminal High 
Altitude Area Defense, or THAAD, interceptors to improve 
regional missile defenses for the protection of our foreign-
deployed forces, allies, and partners.
    We will continue to install the Aegis ballistic missile 
defense weapon system on Aegis ships, and deliver Standard 
Missile-3 Block IB interceptors.
    We are also supporting the European Phased Adaptive 
Approach [EPAA] providing coverage and protection of NATO 
[North American Treaty Organization] European territory, 
populations, and forces against the increase in ballistic 
missile threat from the Middle East.
    Our request will support continued integration of the SM-3 
Block IIA missile, which is a co-development effort with Japan 
into the Aegis BMD weapon system.
    Currently, there is an operational Aegis Ashore site, 
located in Romania, and while we have experienced delays in the 
military construction portion of the Aegis Ashore effort in 
Poland, we remain steadfastly committed to delivery of that 
capability in support of EPAA Phase 3 as soon as possible.
    This budget request will continue the development of 
breakthrough technologies for integration into the BMDS, 
including discrimination improvements, multi-object kill 
vehicle technology, hypersonic defense technology, and 
exploring high-powered lasers and interceptors that have 
potential against threat missiles in the boost phase of flight.
    Additionally, as we evaluate the elements of the missile 
defense system, we will actively pursue developing elements 
that have multimission and department-wide utility and leverage 
systems such as the F-35, which likely has the sensor, 
communications, and shooter capability in support of the 
Ballistic Missile Defense System.
    Finally, we take the financial audit and our fiscal 
stewardship role very seriously, and MDA has robust and 
accountable financial management processes in place.
    As a note, we closed out fiscal year 2017 with $151 of 
expiring funds out of an $8.6 billion budget that is on our 
books. We are now in the midst of the fiscal year 2018 full 
financial statement audit and have received no findings to 
date.
    The bottom line is, we are committed across the entire 
agency to achieving fully auditable books and maintaining the 
confidence of the Congress and the American public.
    Mr. Chairman, Ranking Member Cooper, and members of the 
subcommittee, I look forward to answering your questions.
    Thank you.
    [The prepared statement of General Greaves can be found in 
the Appendix on page 52.]
    Mr. Rogers. Thank you, General Greaves.
    General Dickinson, you are recognized for 5 minutes.

 STATEMENT OF LTG JAMES H. DICKINSON, USA, COMMANDING GENERAL, 
    U.S. ARMY SPACE AND MISSILE DEFENSE COMMAND/ARMY FORCES 
 STRATEGIC COMMAND, AND JOINT FUNCTIONAL COMPONENT COMMAND FOR 
                   INTEGRATED MISSILE DEFENSE

    General Dickinson. Chairman Rogers, Ranking Member Cooper, 
and the other distinguished members of the subcommittee, thank 
you for your support of our soldiers, civilians, and their 
families. I am honored to testify before you today to emphasize 
the importance of air and missile defense to our Nation, 
deployed forces, allies, and partners. Air and missile threats 
continue to increase, both in quantity and in offensive 
capability.
    With this in mind, thank you for the passage of the fiscal 
year 2018 Appropriations Act, and your continuing support for 
the Nation's air and missile defense forces. Your support 
enables us to continue fulfilling our role in securing the 
Nation today and developing future forces and capabilities to 
deter and counter tomorrow's threats.
    I would like to briefly summarize the missions of the 
organizations I represent today. First, the United States Army 
Space and Missile Defense Command, Army Forces Strategic 
Command, SMDC/ARSTRAT, serves as a force provider in support of 
our combatant commands. SMDC/ARSTRAT, a multifaceted, multi-
compo [component] command, consists of two warfighting 
brigades, a technical center, and future warfighting center 
that provides trained and ready space and missile defense 
forces and capabilities to the warfighter in the Nation.
    Stretching across 11 different time zones and 23 dispersed 
locations, we provide low-density, high-demand capabilities for 
today's fight, as well as build future space and missile 
defense capabilities for tomorrow by researching, testing, and 
integrating space missile defense, cyber, and directed energy 
technologies.
    The changing operational environment and evolving threat 
requires to provide the Army and the joint force with enhanced 
air and missile defense capacity and capability and maintain 
readiness while managing the high operational demand of our 
low-density forces.
    Within SMDC/ARSTRAT, we are collaborating closely with the 
Army's Air and Missile Defense cross-functional team on 
capabilities to increase the lethality of the Army and the 
joint force, including maneuver short range air defense and 
directed energy. The cross-functional team is a key part of the 
Army's new modernization effort that enable us to rapidly 
develop requirements and ensure future capabilities, transition 
quickly from concept to prototyping to fielding.
    I also have the privilege of commanding the Joint 
Functional Component Command for Integrated Missile Defense, or 
JFCCIMD, which supports United States Strategic Command by 
integrating and synchronizing global missile defense 
operations. JFCCIMD conducts global missile defense operation 
support, advocates for and recommends acceptance of missile 
defense capabilities, and executes joint and combined global 
missile defense training and education for the Nation.
    To accomplish this, we maintain close collaborative 
relationships with the geographic combatant commands, the 
Missile Defense Agency, the Office of the Secretary of Defense, 
the Joint Staff, and our allies and partners.
    Despite their unique missions, a unifying principle for 
both SMDC/ARSTRAT and the JFCCIMD is our number one priority; 
to protect our homeland. Both commands will remain bold and 
innovative, offering solutions to ensure our Nation's forces 
are prepared to fight across multiple domains.
    Finally, the challenges we face cannot be met without the 
dedication of our greatest asset, our people. The remarkable 
service members, civilians, and contractors, along with their 
families stationed at home and globally deployed provide 
support to the Army and the joint warfighter each and every 
day.
    I have the utmost confidence and respect for the warriors 
who volunteer to operate these highly complex systems around 
the world.
    Thank you for your continued support for the committed 
professionals who develop, deploy, and operate our Nation's air 
and missile defense systems.
    I have addressed in detail the full range of these missions 
and how we are executing them. And I ask that my statement be 
submitted for the record, and I look forward to addressing your 
questions. Thank you.
    [The prepared statement of General Dickinson can be found 
in the Appendix on page 95.]
    Mr. Rogers. Without objection, the statement is accepted 
into the record. And I will recognize myself for questions. I 
will kind of let you know what we are planning.
    We are going to be called for votes around 5:00, so it is 
my hope we can get through one round of questions in open 
session and then trot down to the SCIF [sensitive compartmented 
information facility] for the closed portion before votes 
because, well, I won't be over there.
    But first, General Greaves, you made reference to the 
Romanian and the Polish Aegis Ashore sites. I am curious as to 
the Romanian site, how the new AAW [anti-air warfare] system 
that we put into the MDA is coming along. Can you give us a 
progress report on that air defense system?
    General Greaves. Mr. Chairman, the AAW system is not 
operational today. Within the Missile Defense Agency, my 
predecessor initiated, and we completed, two demonstrations of 
potential capability as in flowing data from a simulated source 
and then from actual tracks into the Aegis weapon system to 
demonstrate that capability would work. As of right now, we are 
awaiting funds to complete the demonstration of an actual 
system, which would include an Army low-cost radar as a 
potential candidate, as well as the C-RAM [counter rocket, 
artillery, and mortar] system.
    So as of today, it is not operational.
    Mr. Rogers. Great. In looking at the President's budget for 
2019, it appears that the Missile Defense Agency has a gap in 
developing critical advance technology, such as high-powered 
directed energy for boost phase missile defense and space 
sensing.
    As you quoted, Secretary Mattis, quote, ``If we fail to 
adapt the speed of relevance, our focus will lose,'' close 
quote. Yet, in these critical technology areas we continue to 
trade studies and analyses by starting programs with goals for 
operational capabilities.
    How does a 1-year delay in Missile Defense Agency specific 
funding impact your ability to deliver high-powered direct 
energy and space-sensing capabilities?
    General Greaves. Mr. Chairman, I am concerned about that 
delay. However, I am very encouraged with the fact that my new 
boss, Dr. Griffin, working with Ms. Lord in her capacity, have 
the focus and are reengineering and redirecting the Department 
to prioritize, as Dr. Griffin has testified, number one 
priority being hypersonic, both offense and defense, as well as 
directed energy.
    And we have had conversations. I have seen actions being 
taken to prioritize those two areas, as well as other 
technology areas, to deliver that capability to keep pace with 
the threat.
    Mr. Rogers. Great. And this would be to any of the 
witnesses. Across the board, there has been a consensus on the 
need to get to space for missile defense tracking and 
discrimination. Again, without the benefit of having the 
Missile Defense Review, can you lay out the Department's 
position on how space is being looked at in regards to 
warfighting domain for missile defense? Are you still looking 
at what a space-based intercept constellation could provide? Is 
the ultimate goal for directed energy to be used in space? And 
this would be for any one of you who want to take it.
    Secretary Rood. Maybe I will start, and if General Greaves 
has something, or the others, they would like to add, please 
do.
    Sir, you are correct that we are concerned that space--not 
concerned. Space has become a warfighting domain. It is a 
contested area. What we are observing in terms of the 
activities of other nations is of concern. And so you have that 
as a backdrop with this contested and congested space domain, 
and then in the missile defense area, certain capabilities as 
highlighted in our various statements that countries like North 
Korea, Iran, Russia, and China are pursuing that cause us 
substantial concern.
    So we are looking at capabilities that could be employed in 
space, both sensor capabilities and others. It is one of the 
subjects that we are continuing to evaluate potential 
alternatives in that regard. No final decision is made yet on 
those capabilities that would be pursued, but it is definitely 
an area of active study in the Department.
    General Greaves. Mr. Chairman, I would add that moving our 
sensing layer to space to work in coordination with the ground 
layer is absolutely essential to keep pace with the threat that 
we know is coming. I would point out one such example is the 
hypersonic threat. As my deputy is fond of saying, ``if you 
can't see it, you can't shoot it.''
    So the first thing we need to do is ensure that we can 
maintain birth-to-death tracking of threats that are flying 
lower, that can maneuver, that not as predictable as the 
ballistic missile threat. So it is essential that we deploy and 
operate a space-sensing layer to begin with.
    The other part of it is the focus on boost phase intercept. 
I do not believe we have an option to not have some sort of 
capability for boost phase intercept, whether it be directed 
energy or kinetic weapons. I think there are a number of things 
that have to happen, of course. Policy, force structure, 
concept of operations. Those things have to be developed by the 
COCOMs [combatant commands] and other parts of the Department, 
but the ability to have a boost phase intercept capability is, 
I believe, essential as we move into the future.
    As far as space-based interceptors, there are challenges 
that need to be worked through from the policy area, whether or 
not to base it. The technology has got to be developed, but I 
believe that we should be doing some work in that area to 
essentially lay the groundwork if a nation decides to deploy 
space-based interceptors, we haven't lost that time.
    Time is the key. The threat is time. Because, as a Nation, 
we can do anything given enough time to develop and deploy 
capabilities. So that is my input, sir.
    Mr. Rogers. Thank you. The Chair now recognizes the ranking 
member for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. All of the witnesses 
are interested in protecting all of America, but the one 
exception to that is Secretary Rood's testimony where he gave 
special protection coming to the National Capital Region. How 
do we tell our friends in New York or Boston or Norfolk, 
Newport News, or South Florida, they get less protection than 
we do here?
    Secretary Rood. Sir, the policy is to protect the entire 
United States, and that is the, in fact, the capability that 
the Ballistic Missile Defense System that has been deployed for 
the Nation possesses.
    What I was referring to in my statement is there are some 
improvements that are being made for the ability to detect 
aircraft and cruise missiles as part of a two-phase program 
that provide that enhancement. That does not mean the rest of 
the country will not enjoy protection as well.
    As you know, through our air defense system that General 
Robinson and others execute, we do surveil for threats to all 
50 States, where we look at those threats, evaluate them, and 
certainly work through those defense systems.
    Mr. Cooper. I think it is pretty clear in your paragraph at 
the bottom of page 2, the top of page 3, that the National 
Capital Region comes first, at least as far as aircraft or 
cruise missile threats are concerned. And your exact quote is, 
``We are also looking into technologies and concepts that could 
be used to provide scalable and deployable options for 
expanding this defensive capability,'' presumably to the rest 
of the country.
    Secretary Rood. There are options like that for improving 
the capabilities that would be applied, not only to the rest of 
the country, but elsewhere outside of this country that we are 
looking at. But in terms of the ability to defend the country 
against cruise missile threats, those things for aircraft, the 
rest of the country also will have means to do that. But there 
are some particular programs that have been underway for some 
time to provide some phased improvements in our capability for 
the air threats. I am happy to provide you a fuller briefing or 
more information on that if you would like, sir.
    Mr. Cooper. We will talk about it in classified session. 
Thank you, Mr. Chairman.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you all for 
being here. General Robinson, I wish you the best in the 
future, and thank you for your service. But thank you all for 
the great work that you are doing.
    And the first question, actually, this is not missile 
defense, but it has to do with space. Yesterday, I was at the 
Space Symposium, and Vice President Pence, who is also chairman 
of the Space Council, talked about a new directive from the 
council on space management, watching and tracking debris, 
similar things, taking that responsibility and giving it to the 
Department of Commerce.
    Mr. Rood, will that help the military focus better on its 
core mission, to give that responsibility away?
    Secretary Rood. Yes, sir, it will. As described at the 
Space Symposium and elsewhere, the number of objects in space 
continues to increase, and that number of objects not only 
being satellites, but some of the debris and other matters. The 
Defense Department has had the responsibility to catalogue 
those objects, and to engage in a discussion with commercial 
operators in space with the aim of providing safe use of that 
space for their communication satellites or other items.
    As that has grown, the Commerce Department, we think, is 
the more appropriate player to do that. And our colleagues at 
the Commerce Department have stepped forward to take on that 
mission. The Defense Department will still maintain its 
responsibilities in the defense space. We will partner with the 
Commerce Department, but it is an area the Commerce Department 
will more appropriately take the lead.
    Mr. Lamborn. Fantastic. That is great to hear.
    Okay. Back to missile defense. General Greaves, I would 
like to ask you a question. You touched on some very important 
cutting-edge technologies, developing multiple object kill 
vehicle, directed energy, tracking, hypersonic. Are we devoting 
enough resources in this budget that we are discussing to 
advance those technologies, or should we be doing more R&D 
[research and development] in any of those areas?
    General Greaves. Congressman, we are beginning the work on 
hypersonic, beginning the work on directed energy, and 
continuing the work at a lower level on the multiple object 
kill vehicle.
    I have significant hope, from what I have seen already 
within the Department, that with Dr. Griffin's focus and the 
priorities he has laid out for the Department, that the 
discussion will become a lot more robust. And my hope is that 
we will see increased resources dedicated to those areas in the 
next budget.
    Mr. Lamborn. Well, this is a really important issue. And I 
think as we discuss the NDAA [National Defense Authorization 
Act], we are going to want to make sure that the R&D resources 
are really there. Are you saying that it is kind of lacking 
right now and we need more resources?
    General Greaves. Congressman, I am saying the threat has 
demonstrated a capability within the last 18 months that was 
somewhat theoretical before that time. We have seen their rapid 
progress, and time is the enemy, and which is driving the 
Department under Dr. Griffin's leadership to focus on those 
areas and provide the resources, I believe, that we will need 
to provide capabilities to stay in advance of the threat. So my 
hope is to see additional resources in that area in the next PB 
[President's budget].
    Mr. Lamborn. All right. Thank you so much. And lastly, and 
the chairman already talked with you about this, and that is 
space-based sensors, whether it is infrared or electrical 
optical--radar, detectable, optical, so on and so forth. Are we 
doing enough in those areas for space-based sensors?
    General Greaves. Let's see. Again, I will start with a 
threat. And the threat I see is the hypersonic threat as the 
greatest threat.
    We are executing the planning, and I expect to see a 
significant increase in the amount of time and resources that 
we will spend in that area. It is the top priority, I believe, 
for me within the agency, to enhance our sensor architecture, 
and to include moving that sensor architecture to space in 
concert with what we have on the ground.
    Mr. Lamborn. All right. Thank you so much. Mr. Chairman, I 
yield back.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentlelady from Hawaii, Ms. Hanabusa, for 5 minutes.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    General Robinson, thank you very much for your service.
    I have some questions for you about NORTHCOM and NORAD. So 
what is the interface between the two? They both seem to be 
your commands, but separate.
    General Robinson. Yes, ma'am, that is a true statement. 
Under my North American Aerospace Defense Command hat, I am 
responsible for defending Canada and the United States in the 
air domain. And so that can be, whether it is Russian long-
range aviation or submarine shooting missiles. So I am 
responsible for that.
    In my NORTHCOM hat, as the commander of Northern Command, I 
am responsible for defending the United States from a ballistic 
missile defense threat. I also work defense support to civil 
authorities as well as theater security cooperation with 
Canada, Mexico, and the Bahamas.
    Ms. Hanabusa. So, General, as you know, Hawaii had the 
infamous false missile alert, so I am trying to figure out, who 
is it that would have, or should have, detected, if a missile 
was fired from North Korea, and whether it was headed for Guam, 
United States continent, or Hawaii, who would have been the 
agency, or the entity, that should be the one, frontline, 
detecting it?
    General Robinson. So we looked at that, that STRATCOM [U.S. 
Strategic Command] does the initial sensing, and then we work 
our way through on as the missile--and I can be much more clear 
in the closed session.
    Ms. Hanabusa. Okay.
    General Robinson. But as we work our way through the 
missile launch, and as it goes through flight, then there is 
different roles and responsibilities that we have. And at the 
end of the day, when it comes time to defend the United States 
against a ballistic missile, it is me as the commander of 
NORTHCOM.
    Ms. Hanabusa. So just so that I am clear, when we are 
talking about Hawaii or Guam, is it different, or is that 
considered to be as it reaches a certain, it seems like 
trajectory, it would become your responsibility?
    General Robinson. Ma'am, I would really rather talk about 
that in a closed session, so I can give you the detail you are 
looking for.
    Ms. Hanabusa. Okay. And as you can imagine, that is a 
question that is plaguing us in Hawaii right now. We are trying 
to figure out who is the one who should know. The one thing 
that the congressional delegation is uniform on in Hawaii, our 
four members, is that we believe that we should split apart 
the, quote, ``the emergency alert system'' between that which 
is potentially military ballistic missile, in particular, and 
that which would be, like we just had major flooding, and 
hurricanes and tsunamis, that should be something that the 
State should handle.
    But we are not sure the State should be delving in this 
area of missiles and missile alerts.
    In the testimony, let me get to, I believe, General 
Dickinson. When we talk about the whole spectrum of missile 
defense and how we break it up in terms of--from the, I guess, 
when it shot up and it goes up in the trajectory and then it 
goes straight and then it starts to come down. Do you have any 
specific role in that scenario, or is that General Greaves?
    General Dickinson. So I will start off with the operational 
perspective, and I will turn it over to General Greaves for the 
technical piece to that. But what you are describing is our 
ability to look at the total trajectory of the ballistic 
missile flight and able to influence, or have capabilities in 
each stage of that flight, whether it is prelaunch, whether it 
is during the mid-course, terminal, or even the boost phase, 
our ability to do operational planning and then have 
capabilities that are able to influence each one of those steps 
in the flight of that missile is very important.
    So when you look at operational design around the world in 
each of the different COCOMs for our regional missile defenses, 
as well as our national defenses, we looked at that very 
carefully to see how we do that. And then the capabilities that 
come along with that are critical to our ability to influence 
each one of those sections of flight.
    Ms. Hanabusa. General, I don't mean to be insulting in any 
way, but if it takes us long to detect it as you just gave the 
explanation, there are a lot of people who are going to be very 
antsy. General, do you have anything to add?
    General Greaves. Just one clarification, ma'am, is that my 
role as the acquirer, our folks, they essentially work with 
industry to deliver the capability. The operational use of 
those systems rest with the combatant commanders.
    Ms. Hanabusa. Thank you very much. And with that, I yield 
back.
    Mr. Rogers. I thank the gentlelady. The Chair now 
recognizes the gentleman from California, Mr. Hunter, for 5 
minutes.
    Mr. Hunter. Thank you, Mr. Chairman. Thank you, lady and 
gentlemen, for being here and for your service.
    I guess, General Dickinson, let's talk about, if we could, 
the way that the pendulum swings from high-tech to low-tech 
based on what we are doing at whatever point in time that we 
exist right now, which is looking at North Korea, looking at 
Russia and China, talking a lot about space, very complex, 
giant systems. When 10 years ago, the focus was the C-RAM, our 
counter battery radars, acquiring rockets and other, just 
mortars and hate and disconnect and content that guys were 
shooting at our forward operating bases in Iraq and 
Afghanistan.
    So that is switched now. So now we are focusing more on 
space stuff, I guess my general question is, to begin, do you 
think the pendulum is staying where it needs to be to where we 
get back in that fight again where we are getting shot at all 
the time, and realize we kind of lost that sharpness that we 
had in that fight and gave it up to the more high-tech, big 
fight? And realizing that there is only a few countries where 
it takes satellites and interceptors and other things to stop 
their ICBMs. There is lots of countries that can do a lot of 
bad things to forward-operating bases in Africa or the Middle 
East and the Philippines, to other places. I guess, that is the 
pendulum question. Where are we?
    General Dickinson. So I think with regards to your 
question, so we have identified that, your mention of the C-RAM 
system. The Army, as a whole, has identified that as an area 
that we are continuing development in in terms of building back 
a short range air defense capability that we will bring back 
into the Army formations here in the next several years.
    We are currently looking at what we call maneuver SHORAD 
[short range air defense] capabilities, whether that is a gun-
missile mix or potentially in the future to a directed energy. 
My particular command, we are looking into directed energy and 
have had good success in demonstrating a 5KW [kilowatt] laser 
mounted on a Stryker combat vehicle. And we have had very good 
success over the last year and a half or so with four different 
tests where we actually had soldiers on the Stryker combat 
vehicle engaging small UAS [unmanned aerial system], squad-
copter type targets very successfully.
    So as we mature that technology beyond 5KW onto 50KW with 
the ultimate objective for the Army at 100KW, we are looking at 
that. That will be integrated into what we call an IFPC 
[indirect fire protection capability] which is the follow-on to 
C-RAM that will have an ability to use directed energy as well 
as potentially gun-missile mix. We are also looking to see 
whether or not we can employ electronic warfare in some of 
those capabilities as well.
    So overall, the Army has identified the fact that we need 
to bring back that capability into the maneuver forces for the 
Army. And so to your question, I would say the pendulum is 
probably about right. We are looking at what we need to do to 
address what you described, the counter-UAS, counter-cruise 
missile capability, and we are looking to the near-peer 
adversaries that have the more sophisticated missile 
technology.
    Mr. Hunter. Look at what the Ukrainians went through with 
the Russians bombarding them with artillery fire.
    And I would like the members of this committee to know, we 
are the ones, this committee before I was in Congress, put the 
C-RAM in Iraq in the first place. It was the Navy. It shoots 
spent uranium, missiles coming in. The military didn't want to 
do it. This committee loaded one up in California, sent it out 
there, and they could then shoot rockets and mortars coming in 
with the spent uranium, and it saved a lot of lives.
    But it was one of the things that this committee did that 
was outside of the box that the military didn't want to do.
    All right. I guess, lastly, are you looking at what the 
Ukrainians have done with our counter-battery radars that we 
gave them with restrictions? We couldn't give them any 
offensive weaponry for the last 8 years, but we gave them 
counter-battery radars. And they have really rigged those up to 
do some amazing things. Have you guys looked at that?
    General Dickinson. We continue to look at that and other 
operational scenarios we have had in the theater with our own 
weapon system as we build to the future with that capability.
    Mr. Hunter. And, I guess, tying in with that, you have the 
new Integrated Air and Missile Defensive Battle Command System, 
the IBCS. Can you just talk about that briefly?
    General Dickinson. So that is the future system we are ----
    Mr. Hunter. In terms of the budgeting and its milestones on 
being on track in time.
    General Dickinson. So the program, overall, is on track to 
deliver in 2022. We will do a limited user test in 2020. That 
system will, that capability brings online the fact that we 
will be able to bring in multiple sensors, multiple shooters 
onto an integrated fire control network.
    So that will greatly enhance our capability to essentially 
have the best shooter and the best sensor coupled together to 
prosecute the targets.
    Mr. Hunter. And that will plug into whatever the 
distributed common ground system is in the future, I would 
guess?
    General Dickinson. We are looking at that. Yes.
    Mr. Hunter. Okay. All right. Thank you very much. Thank 
you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from New Jersey, Mr. Norcross, for 5 minutes--or 
not.
    The Chair now recognizes the gentleman from the great State 
of Alabama, Mr. Byrne, for 5 minutes.
    Mr. Byrne. Thank you, Mr. Chairman. I think General 
Greaves, this is directed to you, but if I am wrong, tell me. I 
want to talk about hypersonic. Are you the right person for 
that?
    General Greaves. One of several.
    Mr. Byrne. Well, if somebody else needs to answer this, 
jump in. I know that you all have spent a little over a year 
now on your analysis of alternatives, and I have been reading 
that recently China has made some pretty shocking advances in 
the realm of hypersonic weapons. Aside from the flight testing 
they have done, there are reports that they are heavily 
investing in their ground testing infrastructure and have 
planned to have a wind tunnel operational by 2020 that can 
simulate hypersonic speeds, which would allow them to better 
test their weapons, and no indications that they are slowing 
down the development of their capabilities.
    And earlier this year, Admiral Harris of PACOM [U.S. 
Pacific Command] testified before this committee that Chinese 
hypersonic weapons are one of the biggest threats in his 
region.
    So can you tell us as you are coming to the close of the 
analysis of alternatives, what you have learned so far and how 
far the agency is in moving forward?
    General Greaves. Yes, sir. You are correct, we are coming 
to closure on the AOA, the analysis of alternatives. I should 
be able to get a quick look within the next 30 days, and before 
end of the year, that should be completed.
    What we are determining is that the architecture that we 
need to defend against that hypersonic threat will be air-, 
ground-, and space-based. The most important one initially is 
to deploy that sensing layer I referenced before. But also, we 
need to look at the system's engineering portion of that to 
roll out and develop the architecture that is required, as well 
as a potential new interceptor that we may need to mitigate 
that threat.
    So it is a complete architectural look at what will be 
needed. And the threat, the enemy is time, again. So we look to 
Dr. Griffin and Ms. Lord's leadership within the Department to 
strongly advocate for what will roll out of the AOA, and to 
ensure that activity is resourced and funded in next year's 
budget, and we can continue on to deploy those capabilities to 
meet the threat.
    And I will turn it either to Secretary Rood or General 
Robinson to see if they have anything to add.
    Secretary Rood. Sure. I think General Greaves largely 
covered it, except to say, I concur with you fully about the 
growth of the threat. I think we are very concerned about the 
rate of progression that we have seen, not only in China, but 
elsewhere, like Russia.
    And so it is an area that we are looking very seriously at 
in the Department, and the analysis of alternatives being led 
by General Greaves and Dr. Griffin.
    Mr. Byrne. Let me pose a hypothetical to you, a very 
disturbing hypothetical. There is a breakdown in Congress, and 
we decide to go back to the funding levels that are established 
in the Budget Control Act for the out-years. What does that do 
to what you are responsible for, Mr. Rood?
    Secretary Rood. Well, certainly the Congress, in its recent 
actions, has shown great confidence in the Defense Department 
leadership to come forward with the kind of programs and 
capabilities to defend the Nation.
    Mr. Byrne. It was a 2-year deal, and it could break down. 
What happens to what you are responsible for, if there is a 
breakdown, and we go back to those spending levels under the 
Budget Control Act?
    Secretary Rood. It would obviously pose a substantial 
concern, because the levels envisioned in the Budget Control 
Act [BCA] are significantly below that which we are operating 
now.
    As the National Defense Strategy makes clear, we have 
entered a period of competition amongst the great powers, with 
China and Russia being our principal concerns. But certainly, 
states like North Korea, Iran, and the fight that we are in 
with violent extremism posing a substantial threat. So 
certainly, a substantially smaller defense budget as envisioned 
under those BCA caps would be a significant concern for us.
    Mr. Byrne. Would it endanger your ability to defend America 
against a missile attack?
    Secretary Rood. Well, we would obviously continue to mount 
an effective defense with the capabilities we have, but 
certainly, a smaller topline budget and how that got translated 
down to missile defense would impose some significant 
constraints.
    Mr. Byrne. Thank you. I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentlelady from California, Mrs. Davis, for 5 minutes.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman. Thank you 
all very much for being here.
    This morning, and you might have seen or heard, we had a 
session on promoting DOD's culture of innovation. And the 
question really is whether or not we are able to keep pace with 
the scope of innovation in the defense technology sector given 
a host of issues, including culture, but some of the, really, 
the restrictions that we have in terms of our own laws, in 
terms of our own need to create multiple layers of authority, 
and a little different from DARPA [Defense Advanced Research 
Projects Agency], as you well know.
    How do you see that? Could you comment on that? Because I 
think a lot of us know and understand some of the difficulties 
we have, that it takes a long time to bring many of those 
technologies to bear. And by the time we are ready for them, it 
is late. What do you see? What holds you up in being able to 
get what you need to the warfighter in a timely fashion?
    General Greaves. Ma'am, I will start with what Dr. Griffin 
said this morning, the three impediments that he discussed this 
morning. The first being excessive processes, bureaucracy; the 
second being risk aversion, risk aversion nature; and the third 
being a fear to fail. Those are things which are the biggest 
impediments.
    I totally concur with him that leads to, if not indecision, 
the length of time it takes to make a decision.
    I think speed of decision making within the Department is 
what we need. And with those three impediments that Dr. Griffin 
laid out and his intent to reduce or attempt to eliminate 
those, I think will go a long way in ensuring that we can make 
decisions in a time-relevant manner, as the Secretary of 
Defense talked about, to deliver the capability we need. Thank 
you.
    Secretary Rood. The only thing I would add, Congresswoman, 
is that for Secretary Mattis, improving the Department's 
capabilities to both be good stewards of taxpayers' dollars, as 
well as to improve the speed at which we can field capabilities 
to the warfighters, is his third, one of his three top lines of 
effort. He works that through his leadership team.
    Deputy Secretary of Defense, in particular, are very 
focused in this area. And I think the legislation that Congress 
passed creating the separation with an Under Secretary for 
Research, Engineering, and an Under Secretary for Acquisition 
[and] Sustainment is certainly something we fully embrace and 
are starting to move forward with.
    So the problem and the challenge certainly is very well 
understood by the senior leadership in the Department. We have 
now got to make the changes necessary to support the kind of 
innovation you just discussed.
    Mrs. Davis. And I think that Congress is ready and willing 
to try and work through a number of those requirements so they 
don't basically take us down a complicated path that perhaps we 
are going to be able to avoid in the future. Recognizing, of 
course, we still have many requirements that are going to be 
out there.
    Thank you. I appreciate that.
    I think the other issue that we have all worked with and 
talked about is whether or not it is possible through the use 
of multiple satellites to, in fact, have less expensive 
technology, more of it that may, in fact, help us to mitigate 
some of the high cost and even the issues around missile 
defense.
    Is that something that you feel that we can be exploring 
further and we should be exploring further?
    General Greaves. Ma'am, I totally agree. We are exploring 
it today. We've taken action in certain areas today and within 
the recent past, and it is something we must do in the future. 
Whether or not it is disaggregating missions or payloads from 
what I call our Battlestar Galacticas, or hosting payloads or 
using commercial capabilities, those are all things that I know 
the Department has been looking at, is looking at, and will be 
looking at into the future.
    Mrs. Davis. Thank you. And just quickly, the agency's top 
line of $11.5 billion for this fiscal year is going to be cut 
down in the administration's budget to $9.9 billion. Is that of 
concern to you, that you will be able to, you know, mitigate, 
again, the impacts of what is being proposed as a spending 
reduction?
    General Greaves. Ma'am, the answer is yes, it concerns me. 
But I do believe that we have got the management structure in 
place, the attention in place. The threat has voted. I mean, 
the fact that North Korea has done what it has done is visible 
to the entire Nation, the entire world. So it is reality we are 
dealing with. And those discussions will be very robust within 
the Department to ensure that we deploy a missile defense 
system that is capable of defending the Nation.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentlelady.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. General Greaves, let me 
begin with you with this. For directed energy boost phase 
missile defense application, can you explain the similarities 
and differences between what MDA requires versus the services?
    General Greaves. Yes, sir. Short answer is power level. As 
you heard, General Dickinson discussed his requirements to go 
from 5 kilowatts to 50 to 100.
    The missile defense requirements begin at 500 kilowatts to 
a megawatt. And we can discuss more of that in the closed 
session. But power level as well as delivery capability for the 
boost phase intercept mission, if you may recall the airborne 
laser program, chemical laser, which essentially operated 
within the atmosphere, where we are looking at a deployment 
capability that is much higher, 60,000 feet-plus, and all of 
the beam steering, beam quality requirements that go along with 
that. So bottom line is power level.
    Mr. Hice. General Dickinson, anything you would like to add 
to that?
    General Dickinson. I would agree with what General Greaves 
said. What we are developing right now is intended for more of 
a close fight, if you will, and in support of the maneuver 
forces, whether Army, Marine. And the power levels we are 
talking about are appropriate for countering UAS and 
potentially cruise missiles, you know, in the short term.
    Mr. Hice. Okay. General Greaves, are there areas that are 
not being addressed by the Department's High Energy Laser 
Advanced Development Program that are specific to what MDA had 
intended to use for those funds in fiscal year 2019 that would 
somehow delay the missile defense capability?
    General Greaves. No, sir. What I would say is that the 
discussion is a Department concern--a Department-level 
discussion right now. So we are looking at the requirements 
that on the lower end, as General Dickinson mentioned, as well 
as mine, we are working with Dr. Griffin's staff and Dr. 
Griffin, in particular, to ensure that the funds that were 
allocated for directed energy and the funds that we requested, 
make it down to our level.
    Mr. Hice. Okay. The last question that I have for you, in 
your written statement, I wanted to shift gears a little bit 
here, but in your written statement, you discussed the need to 
develop technology and capabilities that will take out ICBMs in 
their boost phase of flight.
    Can you explain how in the fiscal year 2019 budget that is 
being requested how that would help those technologies?
    General Greaves. Yes, sir. Basically, it is the amount we 
have got allocated to do what we call laser scaling. We have 
been able to demonstrate 30 kilowatts in the lab. We need to 
continue the work to upgrade that power level demonstration 
capability to 100 kilowatts in a step-wise fashion to get to 
the 500-1 megawatt level.
    So the technology work is absolutely essential so that we 
can demonstrate the capability on the ground and in the air--
that is part of the plan--before we leap off into a full system 
that has promises with which we haven't delivered the high-
technology readiness level capabilities that we need to develop 
and deploy the system.
    Mr. Hice. Okay. So you feel comfortable that the night, a 
PB 2019 budget request would be sufficient?
    General Greaves. I will be advocating for additional 
funding, to be quite honest with you.
    Mr. Hice. That is what I wanted to know.
    General Greaves. There were hard decisions that had to be 
made within the Department, and the PB represents the product 
of those decisions.
    Mr. Hice. Okay. Alright. Thank you very much. Mr. Chairman, 
I yield back.
    Mr. Rogers. The gentleman yields back. The Chair now 
recognizes the gentleman from Alabama, Mr. Brooks, for 5 
minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    General Greaves, it has been brought to my attention that 
requirements for a THAAD follow-on development program have 
been eliminated, even though other missile defense systems have 
had ongoing follow-on development after their initial fielding.
    Given the pace of threat evolution globally, and given that 
THAAD is a successful and in-demand system, can you share your 
plans, if any, for an ongoing THAAD follow-on that would build 
upon current capabilities?
    General Greaves. Congressman, to be quite honest, we, 
across all of our systems, look at what the next generation can 
produce and can field. THAAD currently meets the requirements 
that have been delivered to us. And I will not say that it is 
not being done. I would say that the system that we have 
delivered meets requirements, and we are looking to see what 
capability will enhance its capability for the future.
    Mr. Brooks. As a follow-up, currently, THAAD has--excuse 
me, was operationalized in Hawaii in 2009 to provide additional 
homeland missile defense against longer-range threats from 
North Korea.
    Perhaps, perhaps, THAAD could provide another layer of 
coverage against ICBMs for homeland defense. What, if any, part 
of your plans to test that against ICBM targets?
    General Greaves. Congressman, I request that we cover that 
in the closed session.
    I have a quick answer for you, but I would not want to say 
too much in the open session.
    Mr. Brooks. All right. If you would, I am not sure if I 
will be here during the closed session, but if you will answer 
that question for the record, I would appreciate it.
    We are about to have votes called in 5 or 10 minutes, is 
what I have been notified, and I do have other meetings that 
are conflicting.
    General Greaves. The short answer, sir, we have studied it 
and we have got the answer.
    Mr. Brooks. All right. Thank you.
    General Greaves and General Dickinson, are you concerned 
that current THAAD battery and interceptor availability will be 
challenged given current and future operational requirements?
    General Greaves. Why don't you take it?
    General Dickinson. Yeah, as of today, we have got six going 
to seven operational THAAD batteries. And Congressman, I know 
you are well aware, we have one that is in Guam and one 
recently deployed to Korea.
    So, you know, as you look at the capacity that we have, we 
have got five ready or soon to be five, four right now, five 
here this fall that will be fully operational.
    I think the THAAD weapon system and the way it is developed 
and designed right now, gives us some flexibility in capacity, 
operational flexibility in the sense that we can move, you 
know, additional launchers from one battery to the other to 
increase capacity, if needed. But at this particular time, I 
think the seven batteries, which I believe are the program of 
record by MDA, is satisfactory.
    Mr. Brooks. Do you have a plan to provide additional THAAD 
batteries to the Army or to add launchers to the existing 
batteries to increase defensive capabilities?
    General Greaves. Congressman, General Dickinson mentioned 
the program of record. So as of today, the answer is no. The 
program of record is seven.
    However, there is discussion within the Department on what 
the THAAD battery requirement is. And if that changes, we will 
request resources to develop and deploy that capability.
    Mr. Brooks. And then finally, General Greaves, can you talk 
a little about the status of the joint emergent operational 
need [JEON] for U.S. Forces Korea, what work has begun, and 
what work needs to be done. I am aware of your unfunded 
requirement of $284 million for the JEON, and I am concerned 
that key integration work for THAAD and the PAC-3 MSE [Missile 
Segment Enhancement] missile and for launch through own remote 
capability has not been funded.
    General Greaves. Yes, Congressman. That is one of the top 
priorities for General Brooks in Korea, who discussed that 
requirement with me directly. We have laid out a plan, which if 
resourced properly provides--require that capability to improve 
the interoperability between those two systems, and we will 
continue to advocate for the funding required to complete that 
project, and pending Department decision, we will see where we 
go next.
    Mr. Brooks. All right. Mr. Chairman, that concludes my 
questions.
    Gentlemen and lady, thank you for your service. And I yield 
the remainder of my time back.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from Colorado, Mr. Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman. To all the witnesses, 
how is the rapid advance of North Korean missile technology, 
obviously, they still have to weaponize that launch system, but 
how has that affected your decisions, the U.S. missile defense 
posture?
    Secretary Rood. Well, I will start and invite my colleagues 
to add to that, sir. Certainly, the rapid pace that the North 
Koreans are improving their capabilities in the demonstrable 
way they have gone about that with some two dozen ballistic 
missile tests in recent years, accompanied with nuclear test, 
has really punctuated the concern that we have had for quite 
some time about North Korea. It punctuated it with an 
exclamation point.
    So that has gotten our attention. We have, as mentioned in 
our statements, last year requested supplemental funding, which 
the Congress was supportive of--and thank you for that--to 
increase the pace at which we are doing that. But the size, 
scale, and sophistication of the threat is growing, and the 
size, scale, and sophistication of our defense is proposed to 
grow in the President's budget request.
    And we are presently examining the capabilities to take 
that to a substantially higher level, not just for the United 
States. As discussed, we have deployed THAAD to South Korea, we 
are in conversations with our Japanese allies and other 
partners about how we can improve our collective capabilities 
to be able to respond to that threat, sir.
    General Robinson. Sir, the only thing I would add to that 
is, as the commander of NORTHCOM, is, you know we watched very 
quickly the rapidity with which he did testing and the speed 
with which he made capability. So with the ATR [automatic 
target recognition] that was given to us last year, to be able 
to add capacity while we are still working on the redesigned 
kill vehicle will also add to the capability and still working 
on discrimination radars.
    So all of this is good news to help us, but we watch him 
very closely.
    General Greaves. Congressman, I support entirely what 
Secretary Rood and General Robinson just articulated. It has 
caused us and helped us to focus our efforts on, and make the 
articulation of the threat a whole lot easier because it's been 
demonstrated, and the timeline has been compressed due to the 
demonstrated capability that we have seen.
    General Dickinson. And in my role as a force provider for 
General Robinson for the soldiers that actually operate the GM 
[Ground-Based Midcourse Defense] system, I will tell you that I 
am absolutely confident in that capabilities to operate that 
system 24 hours a day on behalf of the Nation, and completely 
confident, given the capabilities that we have seen 
demonstrated in the weapon system that we have, and in complete 
agreement with where we are going on the path to improve the 
reliability and performance of the system.
    Mr. Coffman. I wonder if--all witnesses, again--I mean, 
across the board, there has been a consensus on the need to get 
to space for missile defense tracking and discrimination. 
Again, without the benefit of having the MDR [Missile Defense 
Review]. And can you lay out the Department's position on how 
space is being looked at in regards to a warfighting domain for 
missile defense?
    Are you still looking at what a space-based intercept 
constellation could provide? Is the ultimate goal for directed 
energy to be used in space?
    Secretary Rood. I will just start briefly, and again, 
reiterate that we are concerned about the progression of space 
capabilities and the contested nature of space as a domain, 
just as a general matter.
    In the area of missile defense, of course, the offensive 
missiles that could be fired against the United States will 
transit space and reenter.
    We have had, in our architecture for some time, space-based 
capabilities to track and detect the launch of those missiles, 
and there have been efforts over the years to have a space-
based test bed and other activities to evaluate competing 
capabilities.
    Certainly, the Missile Defense Agency and General Greaves 
can articulate that further, have put forward concepts for 
space-based tracking capabilities which the Department has 
funded for demonstration this year, and we are looking at 
additional capabilities in that regard, both in the space-based 
tracking area and evaluating the capabilities that could be 
potentially fielded in space for the kill mechanism, whether 
that be through directed energy or other means.
    Those are things we are simply evaluating at this stage, 
but General Greaves may want to articulate more.
    General Greaves. Congressman, it begins with the threat. 
Today's ballistic missile threat is fairly predictable. You 
throw a baseball from where I am, in that direction, it will go 
in that direction.
    The concern, again, is what we have seen Russia, China, and 
other nations do in the area of hypersonic, where it is lower-
flying, maneuverable, and the need, as they deploy more complex 
countermeasures, things aimed at defeating our missile defense 
capabilities, the need, the absolute essential need to track 
and maintain custody of that threat from beginning to end, and 
that draws you up into space. We don't have enough radars to 
populate the globe to maintain that same level of custody.
    So from a space-sensing layer, absolutely essential, first 
thing we need to do, increase that capability. And then as a 
Nation, decide what the next step is with deploying an 
interceptor, if it is space-based, whether or not to do it, how 
to use directed energy, spending resources on the technology 
and initial development work to essentially determine if that 
capability is real or not.
    So it is really critical that we pursue the space-based 
capability.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. It looks like if we walk briskly down to the 
SCIF, we will be able to get the classified section done before 
votes. So we will stand in recess for 5 minutes while we move 
to the SCIF.
    [Whereupon, at 4:44 p.m., the subcommittee proceeded in 
closed session.]

      
=======================================================================


                            A P P E N D I X

                             April 17, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 17, 2018

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 17, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. The FY17 NDAA expanded existing language from the 
Missile Defense Act of 1999 to move our national missile defense policy 
beyond simply defense of a ``limited ballistic missile attack.'' Is the 
Department embracing the revised direction to provide a robust, layered 
defense against the increasingly complex missile threat posed by our 
peer adversaries (meaning hypersonics and cruise missile threat)? And, 
how will the upcoming missile defense review clearly demonstrate this 
commitment?
    Secretary Rood. As the National Defense Strategy (NDS) points out, 
the United States, allies, and partners confront a security environment 
that is more complex and volatile than any we have experienced in 
recent memory. Today, more than 20 States possess offensive missiles, 
and potential adversaries are expanding their missile capabilities in 3 
different directions simultaneously. They are increasing the 
capabilities of their existing missile systems, adding new and 
unprecedented types of missile capabilities to their arsenals, and 
integrating offensive missiles more thoroughly in their coercive 
threats, military exercises, and war planning. The Department's missile 
defense posture, program and budget requests over the last 2 years, and 
policy as articulated in the current NDS illustrate our strong 
commitment to enhance current capabilities and explore advanced 
technologies for a layered missile defense system. The Department is 
continuing to focus on increasing system reliability to build 
warfighter confidence, increase engagement capability and capacity, and 
address the more complex and advanced threat. We are also moving 
forward to bolster homeland defenses against air and cruise missile 
threats. In 2018, we will complete the first part of a two-phase effort 
to provide effective surveillance against these missile threats to the 
National Capital Region (NCR). Doing so will enhance our ability to 
detect, track, and investigate suspicious aircraft, in addition to 
cruise missiles, and, when necessary, cue our missile defense systems 
against the full spectrum of air threats. We are on track to begin the 
second phase of this effort over the next year, which will expand our 
capability to detect, identify, and take defensive action before air 
threats can strike potential targets within the NCR. We are also 
looking into technologies and concepts that could be used to provide 
scalable and deployable options for expanding this defensive 
capability. As directed by statute, the Missile Defense Agency (MDA) is 
currently conducting an Analysis of Alternatives to assess 
architectures to defeat hypersonic threats. For the boost phase, we are 
exploring advanced technology, including improved discrimination in our 
missile defense system sensor architecture and lasers to intercept 
offensive missiles during their most vulnerable boost phase of flight, 
and we are evaluating new space-based sensor concepts. The Missile 
Defense Review (MDR) will be consistent with the NDS and the National 
Security Strategy (NSS), reinforcing our commitment to layered defense.
    Mr. Lamborn. In Lt Gen Greaves' testimony, he wrote, ``scalable, 
efficient, and compact high-energy lasers could change future missile 
defense architectures.'' Laser scaling is a critical technology to 
achieve next-generation missile defense. Without it, there is likely no 
boost-phase kill. I understand MDA's Directed Energy money was 
transferred in FY19 to an overall effort in the Department that is 
addressing high energy laser technology. MDA's portion of the budget 
request of $5M is nowhere near what is needed to scale the two lab 
lasers (Lincoln and Livermore Labs) being developed for boost phase 
kill. Is MDA able to use the OSD PE for laser scaling, and how can you 
get access to that money? Are there areas that are not being addressed 
by the Department's high energy laser advanced development program that 
are specific to what MDA had intended to use funds for in FY19 that 
would delay missile defense capability?
    Secretary Rood. I defer this question to Lt Gen Greaves as he is 
better positioned to answer the specifics related to laser scaling.
    Mr. Lamborn. In September last year, General Hyten said of boost 
phase missile defense, ``the traditional boost-phase defense construct, 
whch is missiles, is not a technical question. It's actually an easier 
technical problem to hit a missile in boost phase than it is in 
terminal phase.'' With this in mind, would you agree that space-based 
missile defense is a policy rather than a technical capability 
question? From a war fighting perspective, would space-based missile 
defense (whether that's interceptors, directed energy, or both) 
increase the overall effectiveness of our missile defense architecture?
    Secretary Rood. The boost phase is the initial layer of missile 
defense (followed by midcourse and terminal). It is the ideal time to 
intercept a threat missile since it has not yet deployed either its 
warhead or countermeasures. Further, interception during the boost 
phase has many benefits. It allows us to defeat missile threats over an 
adversary's territory rather than our own, negating the threat far from 
its intended target and reducing the number of interceptors required to 
counter the missile. Finally, the more missiles intercepted at the 
boost phase means there will be fewer missiles to engage in mid-course 
or terminal phases. There are many benefits to missile defense by 
basing capabilities in space. It provides an ideal medium to address 
rapidly advancing threats across multiple regions of interest. Space 
provides access to and persistence in areas of the globe we could not 
obtain by other means. Tracking, discriminating, cueing, and targeting 
missile threats from space would enable more efficient and effective 
use of our interceptor inventory. The Department is exploring the 
development of a space-based sensor system to provide warning, 
tracking, and discrimination of evolving ballistic missile threats 
launched from anywhere in the world. A space-based sensor layer would 
enable the United States to use the interceptor inventory more 
efficiently and more effectively, and to counter a broader array of 
threats. We are also evaluating space-based sensors to support tracking 
of advanced threats such as hypersonic-glide vehicles (HGVs). It also 
makes sense to explore the technologies and concepts for a space-based 
intercept layer to determine whether they will work, and whether they 
are cost-effective and affordable. This may involve on-orbit 
demonstrations and experiments. Intercept capabilities could include 
kinetic or different types of directed energy, and could engage in the 
boost phase of flight when a missile is most vulnerable over an 
adversary's own territory, or in the mid-course phase of flight. We 
should examine different forms of directed energy, such as high-energy 
lasers, which may also address hypersonic missiles in a glide phase in 
the atmosphere. Our adversaries have made and continue to make advances 
in their regional offensive missile threat capabilities. We must be 
prepared to examine the full range of military capabilities to improve 
our defenses, including thorough development of space-based sensors and 
thorough exploring of space-based interceptors as we utilize the space 
domain and the unique capabilities of space-based assets to counter 
these threats.
    Mr. Lamborn. In Lt Gen Greaves' testimony, he wrote, ``scalable, 
efficient, and compact high-energy lasers could change future missile 
defense architectures.'' Laser scaling is a critical technology to 
achieve next-generation missile defense. Without it, there is likely no 
boost-phase kill. I understand MDA's Directed Energy money was 
transferred in FY19 to an overall effort in the Department that is 
addressing high energy laser technology. MDA's portion of the budget 
request of $5M is nowhere near what is needed to scale the two lab 
lasers (Lincoln and Livermore Labs) being developed for boost phase 
kill. Is MDA able to use the OSD PE for laser scaling, and how can you 
get access to that money? Are there areas that are not being addressed 
by the Department's high energy laser advanced development program that 
are specific to what MDA had intended to use funds for in FY19 that 
would delay missile defense capability?
    General Greaves. MDA is currently in discussion with the Office of 
the Secretary of Defense on the division of funding and how best to 
pursue in parallel both laser technologies that are scalable to higher 
power for strategic applications, and lasers that are limited to lower 
power for tactical applications. Yes, there are MDA specific technology 
requirements that are not being addressed by other Department of 
Defense laser programs. A boost phase kill capability is dependent upon 
both funding and technology development. We need to increase power 
levels achieved in the laboratory by at least ten times in order to 
achieve a boost phase kill capability. Thus, we are pursuing multiple 
technologies in parallel to reduce development risk. In the fiscal year 
(FY) 2019 budget just signed into law, MDA received a plus up of $85 
million (M) above the $5M budget request. With the plus up, MDA's 
funding is sufficient to pursue our strategic laser scaling plan for 
missile defense for FY 2019. However, a similar level of funding will 
be required in FY 2020 to keep the competitive development program on 
track.
    Mr. Lamborn. Lt Gen Greaves, I was happy to read in your testimony 
when you stated, ``We must make investments in advanced technology 
today to prepare for tomorrow's threats.'' Given that our near-peer 
adversaries are consciously targeting the gaps and seams in our current 
missile defense architecture, I agree that it is critically important 
for us to develop and deploy our next generation missile defense 
capabilities as soon as possible. This includes Multi-Object Kill 
Vehicle technology, boost-phase intercept, and hypersonic defense among 
other things. In your professional military opinion, what is the 
limiting factor in the development of these technologies? With greater 
resources available, how much faster could we develop and deploy these 
systems?
    General Greaves. Since each of the next generation missile defense 
capabilities listed above are quite different and have different 
limiting factors, they will be addressed individually. Development of 
these capabilities can be accelerated in varying degrees, provided the 
required resources are available to invest in the technologies 
identified below. Multi-Object Kill Vehicle (MOKV): The threat is 
projected to outpace, in number and complexity, our current defensive 
capability. MOKV will provide a force multiplier effect by increasing 
Warfighter BMD kill vehicle capacity without increasing the number of 
interceptors and provide the ability to outpace the evolving threat. 
This new capability places multiple kill vehicles on a single 
interceptor to increase the number of likely lethal objects engaged per 
interceptor, thereby reducing interceptor usage for any given threat. 
Technology development at the levels resourced has been a key factor 
limiting development. Boost Phase Intercept (BPI): BPI can 
significantly benefit the ballistic missile defense by eliminating or 
thinning out waves of inbound threats. Destroying an accelerating 
booster before it reaches the midcourse phase of flight prevents the 
reentry vehicle from reaching its target and potential countermeasures 
from deploying, effectively removing several objects from midcourse 
with one intercept. However, BPI operational challenges remain hard 
problems, including: short engagement timelines, sensor support, the 
need for continuous coverage, maneuvering targets, cloud cover, and 
threat country geography. Air-launched kinetic interceptors are the 
only viable BPI capability that can be delivered in the near-term. The 
capability of this class of interceptor is limited however, requiring 
indications and warning to position aircraft into operating areas and 
overflight of adversary territory for engagement of certain 
trajectories. With adequate funding, we could provide an interim air-
launched BPI kinetic capability by 2023. In the mid-to-far term, more 
robust BPI solutions are directed energy weapons including airborne- or 
space-based lasers and space-based Neutral Particle Beam (NPB) 
technology; and space-based kinetic interceptors. To expedite achieving 
these capabilities, we need increased investments in scaling a 
lightweight electric laser to the megawatt class power required for 
boost phase kill with high electrical-to-optical efficiency and 
excellent beam quality; and demonstrating the precise beam pointing 
stabilization required in flight at high altitude or on a spacecraft. 
With adequate funding, we could demonstrate using a laser against a 
surrogate booster target by 2024 and scale a laser to megawatt class by 
2025; conduct a space laser feasibility demonstration by 2027; 
demonstrate NPB beam propagation by 2023 and complete a subscale 
prototype experiment by 2028; and complete a Space Based Interceptor 
Functional Demonstration by 2022 and a follow-on Technology 
Demonstration by 2024. Hypersonic Defense: Hypersonic maneuvering 
missiles are unique as an emerging weapon capability which have only 
recently become a credible threat. Our defensive systems, to include 
how we think about missile defense, must evolve to address them. The 
defense against hypersonic missile threats is challenging, but the 
primary limiting factor is resources. With additional resources, and 
smart investments in key technology development and integration, our 
current missile defensive capability can be evolved to quickly address 
this threat class. For the near-term, continued investments in our 
existing C2BMC, fire control, and sensors are required to ensure our 
systems are optimized for the detection and tracking of the hypersonic 
threat as soon as it breaks the sensor horizon. We need weapon systems 
coupled with the sensor network that are capable of high data rate, low 
latency communications that can overmatch the maneuvering capability of 
hypersonic threats. In the mid-term, we need investments to extend our 
ability to detect and maintain track of hypersonic threats over the 
horizon and to cover large areas using satellite systems. New 
interceptor types must be highly maneuverable yet able to engage 
hypersonic threats at much greater ranges during the threat's glide 
phase where its maneuvering capabilities are limited. We also need new 
command and control systems that employ tailored communication systems 
to provide low latency in-flight updates to interceptors challenging 
hypersonic threats over the horizon. MDA is currently delivering an 
FY19 NDAA report that discusses the acceleration of specific hypersonic 
threat defense capabilities.
    Mr. Lamborn. In September last year, General Hyten said of boost 
phase missile defense, ``the traditional boost-phase defense construct, 
which is missiles, is not a technical question. It's actually an easier 
technical problem to hit a missile in boost phase than it is in 
terminal phase.'' With this in mind, would you agree that space-based 
missile defense is a policy rather than a technical capability 
question? From a war fighting perspective, would space-based missile 
defense (whether that's interceptors, directed energy, or both) 
increase the overall effectiveness of our missile defense architecture?
    General Greaves. Developing and deploying a spaced-based missile 
defense system presents a number of technical, resource, and policy 
issues that must be thoroughly examined. Therefore, DOD plans to 
undertake an updated examination of the concepts and technology for 
space-based missile defenses in order to inform potential future 
decisions. In the 2018 and 2019 National Defense Authorization Acts, 
Congress directed MDA to submit a plan to develop a space-based 
ballistic missile intercept layer to the ballistic missile defense 
system. MDA is currently finishing this plan and will deliver it later 
this year. This plan defines a program that addresses the technical 
challenges, demonstrates the required key capabilities, procures and 
begins fielding an operational capability within a 10-year timeframe. 
Yes, adding an effective, tested and proven space-based missile defense 
layer would increase the overall effectiveness of our missile defense 
architecture. In the 2018 and 2019 National Defense Authorization Acts, 
Congress directed MDA to submit a plan to develop a space-based 
ballistic missile intercept layer. MDA intends to deliver this report 
to Congress by the December 12, 2018 deadline.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. STEFANIK
                  
    Ms. Stefanik. With new claims from Russia about their cruise 
missile capabilities and the ongoing concern about Iran's future 
nuclear capabilities, how prepared do you currently feel we are to 
protect the east coast of the United States from missile attacks?
    Secretary Rood. With respect to Russia's claims on cruise missile 
capabilities, we are bolstering our homeland defenses against cruise 
missile threats. In 2018, we will complete the first part of a two-
phase effort to provide effective surveillance against these missile 
threats to the National Capital Region (NCR). Doing so will enhance our 
ability to detect and track cruise missiles and, when necessary, cue 
our missile defense systems. We are on track to begin the second phase 
of this effort over the next year, which will expand our capabilities 
within the NCR. We are also looking into technologies and concepts that 
could be used to provide scalable and deployable options for expanding 
this defensive capability. Today, the Ground-Based Midcourse Defense 
(GMD) sites in Alaska and California provide protection against rogue 
State intercontinental ballistic missile (ICBM) threats. The United 
States is expanding and modernizing the GMD system, which will further 
strengthen our ability to track and counter emerging rogue nation ICBM 
threats to the United States. We are closely monitoring Iran's long-
range missile programs. Should an ICBM threat emerge, we are positioned 
to proceed with an additional site. We have completed Environmental 
Impact Statements on four potential interceptor sites: two sites 
located at Fort Custer, Michigan; one site at Camp Ravenna, Ohio; one 
site at Fort Drum, New York), reducing deployment time by up to two 
years. We also are maintaining an active ground-based interceptor 
production capacity. The National Defense Authorization Act for Fiscal 
Year 2018 (Section 1680) also directs DOD to conduct a test to assess 
the feasibility of an SM-3 Block IIA interceptor against an ICBM-class 
target by 2020. Long-term, we will explore advanced technologies such 
as a space-based sensor layer and kinetic and directed energy for 
boost-phase intercept that offer broad benefits for homeland defense.
    Ms. Stefanik. Do you feel that a Ground Based Interceptor site on 
the east coast would contribute to deterrence of an attack? If not what 
technologies, current or emerging would best enhance the coverage of 
the east coast?
    Secretary Rood. The Ground-Based Midcourse Defense (GMD) system is 
capable of effectively defending against an intercontinental ballistic 
missile (ICBM) attack from regimes such as North Korea and Iran. There 
are planned increases in interceptor inventory and system performance. 
U.S. policy is to improve the capabilities and capacity of the current 
homeland missile defense system to enable the system to engage more 
advanced missiles from these States. To stay ahead of the threat, we 
are investing in technologies and programs to address emerging threats 
more effectively over the next decade.
    Ms. Stefanik. The Army invested billions of dollars in the Joint 
Land Attack Cruise Missile Defense Elevated Netted Sensor System 
(JLENS), an aerostat sensor technology used to establish persistent 
over-the-horizon surveillance and early warning capabilities against 
cruise missiles. That mission was derailed due to a breakaway incident 
that led to funding being pulled from the project. a. What are some of 
the positive results from the research and development that was 
conducted during that project? b. Is there any discussion of leveraging 
the advantages of aerostat technology for sensors in the future? If 
not, what do you plan to use to compensate for the loss in capability 
that JLENS provided?
    General Robinson. The Joint Land Attack Cruise Missile Defense 
Elevated Netted Sensor System (JLENS) was one of several sensors at 
that time that were being assessed to improve cruise missile detection 
in and around the National Capital Region (NCR). During the exercise 
when the JLENS surveillance aerostat was aloft, it demonstrated greater 
surveillance coverage than currently exists in the NCR. However, 
unfortunately, it was not aloft 24x7 as a persistent capability due to 
weather and maintenance. There is not one single solution to address 
advanced cruise missile threats. NORAD is working within the Department 
of Defense for a phased, layered capabilities approach to expand cruise 
missile defense capabilities in the United States and Canada. 
Indications and warning are also critical to detect the advanced cruise 
missile at greater ranges, providing more decision time and intercept 
options before the missiles reach North America. We continue to pursue 
improvements to indications and warning, surveillance, and engagement 
capabilities to meet the evolving challenges posed by these advanced 
cruise missile threats.
    Ms. Stefanik. With new claims from Russia about their cruise 
missile capabilities and the ongoing concern about Iran's future 
nuclear capabilities, how prepared do you currently feel we are to 
protect the east coast of the United States from missile attacks?
    General Robinson. I am confident that we can defend the East Coast 
against current assessed Iranian and North Korean ballistic missile 
capabilities, but we must complete necessary improvements with a sense 
of urgency if we are to remain in a position of relative advantage. The 
current and emerging cruise missile threats constitute a real challenge 
to our air defense architecture and we rely on a layered capabilities 
approach to defend against cruise missiles. Our capabilities against 
cruise missile threats in the National Capital Region include Sentinel 
radars, limited surveillance coverage from advanced sensors, Aerospace 
Control Alert fighters, and ground-based air defense for engagement. 
However, without indications and warning, this provides a very limited 
cruise missile defense capability. Today, NORAD is leading a three-
phased, layered capability Homeland Defense Design within the 
Department of Defense to expand the Department's cruise missile defense 
architecture, and I am confident in the way-ahead for these expanded 
capabilities.
    Ms. Stefanik. Do you feel that a Ground Based Interceptor site on 
the east coast would contribute to deterrence of an attack? If not what 
technologies, current or emerging would best enhance the coverage of 
the east coast?
    General Robinson. The currently fielded system provides ballistic 
missile defense against North Korean and Iranian capabilities. A third 
site, if deployed based on threat maturation, may increase operational 
flexibility for engaging threats from both North Korea and Iran by 
increasing engagement timelines and enhancing ground-based midcourse 
defense redundancy and survivability by geographically dispersing 
interceptors.
    Ms. Stefanik. The Army invested billions of dollars in the Joint 
Land Attack Cruise Missile Defense Elevated Netted Sensor System 
(JLENS), an aerostat sensor technology used to establish persistent 
over-the-horizon surveillance and early warning capabilities against 
cruise missiles. That mission was derailed due to a breakaway incident 
that led to funding being pulled from the project. a. What are some of 
the positive results from the research and development that was 
conducted during that project? b. Is there any discussion of leveraging 
the advantages of aerostat technology for sensors in the future? If 
not, what do you plan to use to compensate for the loss in capability 
that JLENS provided?
    General Greaves. The JLENS fire control radar had some similar 
hardware components and tracking algorithms used in the Army Navy/
Transportable Radar Surveillance and Control Model-2 (AN/TPY-2) radar. 
These similarities enabled the Army and Missile Defense Agency to 
leverage their respective radar development programs. Aerostat 
technology for sensors is not being considered for Ballistic Missile 
Defense. Aerostat technology is beneficial for low altitude cruise 
missile defense, but it is of limited benefit to ballistic missile 
defense, which focuses on high altitude, exoatmospheric threats.
    Ms. Stefanik. With new claims from Russia about their cruise 
missile capabilities and the ongoing concern about Iran's future 
nuclear capabilities, how prepared do you currently feel we are to 
protect the east coast of the United States from missile attacks?
    General Greaves. [The information referred to is classified and 
retained in the committee files.]
    Ms. Stefanik. Do you feel that a Ground Based Interceptor site on 
the east coast would contribute to deterrence of an attack? If not what 
technologies, current or emerging would best enhance the coverage of 
the east coast?
    General Greaves. A Ground-based Interceptor (GBI) site and 
additional GBIs on the east coast would enhance deterrence by 
increasing an adversary's uncertainty that a missile attack would be 
effective against the United States (U.S.). The Department of Defense 
(DOD) is preparing a congressionally mandated Environmental Impact 
Statement (EIS) evaluating candidate sites for a potential additional 
Continental United States (CONUS) Interceptor Site; the EIS is directed 
by Section 227 of the fiscal year 2013 National Defense Authorization 
Act. There has been no decision to deploy an additional GBI site in the 
U.S. The current GBI sites at Fort Greely, Alaska, and Vandenberg Air 
Force Base, California, provide the capability necessary to protect the 
U.S. homeland against an Intercontinental Ballistic Missile (ICBM) 
threat from North Korea as well as a future Iranian ICBM threat, should 
it emerge. An additional site located within the CONUS would add 
potential battle space and interceptor capacity; however, it would come 
at significant material development and service sustainment costs. 
Investment in Ballistic Missile Defense System (BMDS) discrimination 
and sensor capabilities may yield more cost-effective near-term 
improvements to U.S. homeland missile defense. In addition to 
evaluating an additional GBI site, DOD is evaluating potential sensor 
enhancements that will improve the BMDS kill chain and increase threat 
discrimination.
    Ms. Stefanik. The Army invested billions of dollars in the Joint 
Land Attack Cruise Missile Defense Elevated Netted Sensor System 
(JLENS), an aerostat sensor technology used to establish persistent 
over-the-horizon surveillance and early warning capabilities against 
cruise missiles. That mission was derailed due to a breakaway incident 
that led to funding being pulled from the project. a. What are some of 
the positive results from the research and development that was 
conducted during that project? b. Is there any discussion of leveraging 
the advantages of aerostat technology for sensors in the future? If 
not, what do you plan to use to compensate for the loss in capability 
that JLENS provided?
    General Dickinson. (a.) The JLENS deployment demonstrated the 
capability of elevated sensors to provide surveillance, track and 
precision cueing beyond ground radar ranges. The JLENS did become an 
integral part of the National Capital Region Integrated Air and Missile 
Defense System (NCR-IADS), demonstrating the capability of an elevated 
sensor to provide timely data for prosecution of threats. (b.) There is 
high interest in elevated sensors. The US Army is using tethered 
aerostats with multi-mission sensors to provide long endurance 
intelligence, surveillance, reconnaissance (ISR) and communications in 
support of coalition forces in Iraq and Afghanistan. Two aerostats used 
by the Army are the Tethered Aerostat Radar System (TARS) and aerostat-
based Persistent Threat Detection System (PTDS). TARS is a low-level, 
airborne ground surveillance system that's used for active surveillance 
and early-warning base defense. The aerostat-based PTDS is one of the 
ISR tools the Army uses to detect improvised explosive devices buried 
along roadsides. The need to replace the JLENS capabilities was 
documented in the NCR-IADS Tiger Team Report to Congress in 2016. 
Recommendations made in the report are classified; but, no one system 
seems to be capable of replacing JLENS at this time.
    Ms. Stefanik. With new claims from Russia about their cruise 
missile capabilities and the ongoing concern about Iran's future 
nuclear capabilities, how prepared do you currently feel we are to 
protect the east coast of the United States from missile attacks?
    General Dickinson. We have confidence in homeland defense against 
Intercontinental Ballistic Missile (ICBM) threats from emerging 
nations; however, these systems are not capable of defending against 
Russia's large arsenal of advanced ICBMs. To ensure continued 
protection of the homeland, we must make investments in technology 
today to evolve our missile defense capabilities to outpace the growing 
and increasingly complex threats, including advanced cruise missiles, 
from all potential adversaries.
    Ms. Stefanik. Do you feel that a Ground Based Interceptor site on 
the east coast would contribute to deterrence of an attack? If not what 
technologies, current or emerging would best enhance the coverage of 
the east coast?
    General Dickinson. An east coast site would contribute to 
deterrence by increasing our capability to address the future ballistic 
missile threat. However, we strongly believe that the limited ballistic 
missile defense resources should continue to be prioritized to 
improving the sensor architecture and increasing interceptor 
reliability.

                                  [all]
</pre></body></html>
